           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


             Follow-up Audit:
    Indirect Costs for the Connecticut
    Disability Determination Services
       for the Period July 1, 2003
          through June 30, 2005

     September 2007 A-15-07-16034




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 28, 2007                                                                  Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Follow-up Audit: Indirect Costs for the Connecticut Disability Determination Services for
        the Period July 1, 2003 through June 30, 2005 (A-15-07-16034)


        OBJECTIVE

        The objective of our review was to determine the status of the corrective actions that
        the State of Connecticut Department of Social Services (CT-DSS) has taken to
        address the recommendations in our previous report entitled, Indirect Costs Claimed
        by the Connecticut Disability Determination Services (A-15-03-23041) issued
        September 7, 2004.

        BACKGROUND

        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are required to be performed
        by Disability Determination Services (DDS) in each State according to Federal law and
        underlying regulations. 1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. SSA reimburses the DDS for 100 percent of the allowable
        expenditures reported quarterly on Form SSA-4513, entitled State Agency Report of
        Obligations for SSA Disability Programs up to its approved funding authorization. The
        expenditures include both direct and indirect costs. 2




        1
         42 United States Code (U.S.C.) § 421; 20 Code of Federal Regulations (CFR) §§ 404.1601 et seq. and
        CFR 416.1001 et seq.
        2
         Direct costs are those that can be identified specifically with a particular final cost objective (Office of
        Management and Budget (OMB) Circular A-87, entitled Cost Principles for State, Local, and Indian Tribal
        Governments, Attachment A, § E.1). Indirect costs are those (a) incurred for a common or joint purpose
        benefiting more than one cost objective, and (b) not readily assignable to the cost objectives specifically
        benefited, without effort disproportionate to the results achieved. (OMB Circular A-87, Attachment A,
        § F.1).
Page 2 - Manuel J. Vaz


SSA requested that we determine the status of the corrective actions the CT-DSS has
taken to address the recommendations in our prior report 3 Indirect Costs Claimed by the
Connecticut Disability Determination Services (A-15-03-23041). The specific
recommendations were as follows:

1. Return $287,442 of unallowable indirect costs associated with the 2nd and 3rd
   quarters of Federal Fiscal Year (FFY) 2003.

2. Ensure that the indirect costs for the 4th quarter of FFY 2003 indirect costs exclude
   costs for the Department of Administrative Services - Bureau of Collection Services
   (DAS-BCS) and the Connecticut Office of the Attorney General (CT-OAG).

3. Ensure that State Fiscal Year (SFY) 2004 Cost Allocation Plan 4 distributes statewide
   central service costs to the CT-DDS according to the relative benefits received in
   accordance with the Office of Management and Budget Circular A-87.

4. Request the Department of Health and Human Services - Division of Cost Allocation
   (DHHS-DCA) audit the reasonableness of the proposed SFY 2004 Cost Allocation
   Plan statewide allocation methodology taking into account the issues discussed in
   this report. (If DHHS-DCA has already approved the SFY 2004 Statewide Allocation
   Plan, SSA should request the DHHS-DCA revisit the statewide central service costs
   to ensure that the CT-DDS receives some relative benefit from these costs and
   amend the plan as needed.)

In addition, SSA requested that we determine the allowable indirect costs for the
CT-DDS for the period July 1, 2003 through June 30, 2005 (SFYs 2004 and 2005).

RESULTS OF REVIEW

The CT-DSS has taken corrective action to address the four recommendations in our
prior report. A description of the SSA’s Office of the Inspector General (OIG) prior
recommendations and the CT-DSS corrective actions taken are as follows:




3
    SSA’s Boston Regional Commissioner Memorandum dated December 20, 2004.
4
 Public assistance cost allocation plan refers to a narrative description of the procedures that will be
used in identifying, measuring and allocating administrative costs to all the programs administered or
supervised by State public assistance agencies.
Page 3 - Manuel J. Vaz


Recommendation #1 -- Instruct the CT-DDS to return $287,442 of unallowable indirect
costs associated with the 2nd and 3rd quarters of FFY 2003.

In January 2005, CT-DSS paid the $287,442 of unallowable indirect costs identified in
the prior audit report associated with the 2nd and 3rd quarters of FFY 2003 as shown
below.

                                       Table 1
                                      FFY 2003
                                    Quarter Ending     Quarter Ending      Total
             Description            March 31, 2003     June 30, 2003
    Statewide Cost Allocation
    Plan (SWCAP) (Estimated)              $238,665           $230,737     $469,402
    OIG Recommended SWCAP                   96,310             85,650      181,960
    Total – Unallowable Costs             $142,355           $145,087     $287,442

Recommendation #2 -- Instruct the CT-DDS to ensure that the indirect costs for the 4th
quarter of FFY 2003 exclude costs for the DAS-BCS and the CT-OAG.

We verified that the CT-DSS has excluded the DAS-BCS and credited the CT-OAG
costs associated with the Quarter Ending (QE) September 30, 2003 (4th quarter
FFY 2003). The CT-DSS returned $45,811 as follows.

                                        Table 2
                                       FFY 2003
                                                     QE
                         Description           September 30, 2003
                   DAS-BCS Refund                         $64,765
                   Less: Offset                           (51,768)
                   Net DAS-BCS Refund                     $12,997
                   CT-OAG Credit                            32,814
                   Total                                  $45,811

DAS-BCS REFUND

The Public Assistance Cost Allocation Plan (PACAP) describes how costs are allocated
from the Department of Social Services to its components. The CT-DSS updated its
PACAP to exclude 100 percent of the DAS-BCS costs allocated to the DDS. In
December 2006, the CT-DSS reduced the SSA-4513, entitled State Agency Report of
Obligations for SSA Disability Programs to reflect the exclusion of the DAS-BCS costs
as shown above.
Page 4 - Manuel J. Vaz


OFFSET

In response to recommendation #1, CT-DSS returned disallowed funds of $287,442.
However, CT-DSS later appealed this decision and requested SSA reduce the amount
disallowed to $235,674—a difference of $51,768. The original $287,442 amount was
calculated using an estimated SWCAP. In the appeal, CT-DSS provided additional
documentation that it had lowered the SWCAP amount on the final SSA-4513, entitled
State Agency Report of Obligations for SSA Disability Programs and that the State
made appropriate funding adjustments to reflect the lower final SWCAP. Thus, CT-DSS
was entitled to a recalculation based on the final SWCAP. On April 10, 2006, SSA
approved the $51,768 offset to the indirect cost disallowance (as shown in Table 2).
Therefore, the CT-DSS appropriately offset our recommended disallowance of 4th
quarter FFY 2003 costs by $51,768.

CONNECTICUT OFFICE OF THE ATTORNEY GENERAL CREDIT

The SWCAP allocates central service costs to the various bureaus and departments of
the State of Connecticut. The State of Connecticut determined that a large portion of
the CT-OAG costs should be a direct charge to the Child Support and Establishment of
Paternity (Enforcement), Title IV-D program. 5 The State Comptroller’s Office
prospectively credited the CT-OAG costs in the SWCAP for the Title IV-D program, in
accordance with OMB’s Circular A-87. The Circular states in part “…when the actual
costs of the year involved become known, the differences between the fixed amounts
previously approved and the actual costs will be carried forward and used as an
adjustment to the fixed amounts established for a later year.” 6 Therefore, the SFY 2004
CT-OAG costs (associated with the Title IV-D program) were credited to the SFY 2006
SWCAP, and likewise the SFY 2005 CT-OAG costs were credited to the SFY 2007
SWCAP.




5
  The Child Support Enforcement program, Title IV Part D of the Social Security Act, Sec. 451, 42 U.S.C.
§ 651. Its purpose was to authorize appropriations for the purpose of enforcing support obligations owed
by noncustodial parents to their children and the spouse (or former spouse) with whom such children are
living, locating noncustodial parents, establishing paternity, obtaining child and spousal support, and
assuring that assistance in obtaining support will be available to all children for whom such assistance is
requested.
6
 OMB Circular A-87, Attachment C, paragraph G (3) provides for carry forward adjustments of allocated
central service costs.
Page 5 - Manuel J. Vaz


Recommendation #3 -- Instruct the CT-DDS to ensure that the SFYs 2004 and 2005
Cost Allocation Plans were distributing costs to the CT-DDS based on relative benefits
received in accordance with OMB Circular A-87.

We verified that the CT-DSS excluded DAS-BCS and credited the CT-OAG costs out of
the indirect cost allocations for SFYs 2004 and 2005. In addition, we verified that the
allocation methodology was corrected in July 2005. We found that the CT-DSS
distributed costs to the CT-DDS based on relative benefits received in accordance with
OMB Circular A-87. The CT-DSS returned $566,552 as follows.

                                              Table 3
                                             FFY 2004
                           QE                 QE               QE                QE              Total
    Description      December 31, 2003   March 31, 2004   June 30, 2004   September 30, 2004
DAS-BCS Refund              $95,328          $73,071         $54,089              $68,254      $290,742
OAG Credit                   32,978           31,870          31,124               27,358       123,330
Total                      $128,306         $104,941         $85,213              $95,612      $414,072

                                             FFY 2005
                           QE                 QE               QE                QE              Total
    Description      December 31, 2004   March 31, 2005   June 30, 2005   September 30, 2005
DAS-BCS Refund               $55,030         $54,253       $(40,718)                     $0      68,565
OAG Credit                    28,253          27,831          27,831                      0      83,915
Total                        $83,283         $82,084       ($12,887)                     $0    $152,480

Total Both Years                                                                               $566,552

Recommendation # 4 -- Instruct the CT-DDS to request that DHHS-DCA audit the
reasonableness of the proposed SFY 2004 Cost Allocation Plan statewide allocation
methodology taking into account the issues discussed in our prior report.

The CT-DSS revised its PACAP to incorporate the changes we recommended and
submitted the SFY 2006 PACAP to DHHS-DCA to be audited. As a result of the
updates to the PACAP and SWCAP, effective July 1, 2005, the DAS-BCS and CT-OAG
costs (associated with the Title IV-D program) were no longer allocated to the DDS. On
July 7, 2005, the DHHS-DCA acknowledged receipt of the proposed revisions to the
PACAP. On August 16, 2006, DHHS-DCA approved the PACAP, effective
July 1, 2005.
Page 6 - Manuel J. Vaz


New Indirect Cost Issues

Our follow-up audit efforts identified two new issues regarding the CT-OAG and Cater
Eligibility Management System (Cater EMS) indirect costs as shown below:

CT-OAG

We found that the updated 2006 PACAP description of the allocation base for CT-OAG
costs was incomplete. Currently the description states that the CT-OAG costs are a
direct charge to the Child Support Program. Our audit determined that not all the CT-
OAG costs are associated with the Child Support Program and that CT-DSS correctly
received an allocation of the residual CT-OAG costs. The residual CT-OAG costs are
for services such as contract review, representation of employees for grievances, legal
opinions, etc. We determined that the CT-DDS benefits from these types of costs.
However, the PACAP did not identify the residual CT-OAG costs. Therefore, the
description in the PACAP should be updated to include language that there is a residual
CT-OAG cost allocation to the components of the Department of Social Services.

Cater Eligibility Management System (Cater EMS)

The Cater EMS indirect expense account accumulates costs for a database which
contains client information such as name, address, income, etc. used to determine
eligibility for State programs. There were no Cater EMS indirect costs allocated to the
DDS in FFY 2004. However, in FFY 2005 and 2006, we found that $412,986 in indirect
costs for Cater EMS were allocated to the CT-DDS due to an error in the automated
allocation system. The Department of Social Services corrected this erroneous
allocation effective July 1, 2006. Therefore, we questioned $412,986 Cater EMS
indirect costs allocated to the DDS for FFYs 2005 and 2006 as follows.

                                             Table 4
                                            FFY 2005
                         QE                 QE               QE                QE
    Description    December 31, 2004   March 31, 2005   June 30, 2005   September 30, 2005     Total
Cater EMS                   $89,336         $15,503         $71,918              $39,901 $216,658

                                            FFY 2006
                         QE                 QE               QE                QE
    Description    December 31, 2005   March 31, 2006   June 30, 2006   September 30, 2006     Total
Cater EMS                   $76,429         $56,300         $63,599                    $0 $196,328

Total Both Years                                                                             $412,986
Page 7 - Manuel J. Vaz


CONCLUSION AND RECOMMENDATIONS
We found that the CT-DSS has taken corrective actions to address the
recommendations in our previous report, Indirect Costs Claimed by the Connecticut
Disability Determination Services (A-15-03-23041) and no further action is required on
our four prior recommendations.

During our follow-up audit, we identified two issues requiring CT-DSS action.
Specifically, we recommend SSA instruct the CT-DSS to:

1. Revise its PACAP to incorporate a description of the residual OAG costs and explain
   how the CT-OAG costs are allocated to its components, which includes the DDS.

2. Return $412,986 of indirect costs associated with SFYs 2005 and 2006 for the Cater
   EMS expenses for which the DDS received no benefit.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the
Agency’s comments.

STATE AGENCY COMMENTS
The CT-DSS agreed with our recommendations, and provided additional information
related to the adjustments. See Appendix D for the CT-DSS’ comments.

OIG RESPONSE
We are pleased that the CT-DSS agreed with our recommendations. However, final
adjustments will need to be negotiated between SSA’s Regional Office and the CT-
DSS.

To clarify, we provided the CT-DSS notification, via e-mail, of the two items that would
be included in our final report. The audit report, consistent with auditing standards, is
the mechanism by which we make our recommendations and request your comments.

Any adjustments resulting from our recommendations and your planned corrections will
be included in the scope of our current audit of the 2005 and 2006 administrative costs
claimed by the CT-DDS (A-15-07-27176).




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – State Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
CT-DDS     Connecticut Disability Determination Services
CT-DSS     Connecticut Department of Social Services
CT-OAG     Connecticut Office of Attorney General (State Central Services)
DAS-BCS    Department of Administrative Services; Bureau of Collection Services
DDS        Disability Determination Services
DHHS       Department of Health and Human Services
DHHS-DCA   Department of Health and Human Services-Division of Cost Allocation
EMS        Eligibility Management System
FFY        Federal Fiscal Year (October 1 through September 30)
OIG        Office of the Inspector General
OMB        Office of Management and Budget
PACAP      Public Assistance Cost Allocation Plan
QE         Quarter Ending
SFY        State Fiscal Year (July 1 through June 30)
SSA        Social Security Administration
SWCAP      Statewide Cost Allocation Plan
U.S.C.     United States Code
                                                                             Appendix B

Scope and Methodology
The Social Security Administration (SSA) requested this audit 1 in response to our prior
audit Indirect Costs Claimed by the Connecticut Disability Determination Services (A-15-
03-23041) issued September 7, 2004. Specifically, SSA requested we determine the
status of the corrective action taken for the prior recommendations for the period July 1,
2003 through June 30, 2005. To complete our objectives, we:

•     Reviewed Office of Management and Budget Circular A-87, Cost Principles for
      State, Local and Indian Tribal Governments, SSA’s Program Operations Manual
      System DI 39500 DDS Fiscal and Administrative Management, and other
      instructions pertaining to administrative costs incurred by Connecticut Disability
      Determination Services (CT-DDS).

•     Reviewed the State Fiscal Year (SFY) 2004 and 2005 Statewide single audits for the
      State of Connecticut.

•     Reviewed three prior SSA Office of the Inspector General reports as follows:

       Follow-Up Review on Potential Indirect Cost Rate Increases at Connecticut
        Disability Determination Services (A-15-03-23041) dated September 7, 2004,

       Audit of the Administrative Costs Claimed by the Connecticut Disability
        Determination Services (A-15-00-30016), dated September 17, 2001, and

       Limited Review of Connecticut Disability Determination Services' Lease Costs (A-
        15-02-22040), dated October 3, 2002.

•     Interviewed staff at the Connecticut Department of Social Services, State
      Comptrollers Office, State Auditors, SSA Regional Office, and Department of Health
      and Human Services – Division of Cost Allocation.

•     Reviewed the computation of the indirect costs charged to the CT-DDS for State
      Fiscal Years (SFY) 2004 and 2005. The specific audit steps performed consisted of
      the following:

       Obtained an understanding of the Connecticut Statewide Cost Allocation Plan
        (SWCAP) and the CT-DSS Public Assistance Cost Allocation Plan (PACAP).



1
    SSA’s Boston Regional Commissioner Memorandum dated December 20, 2004.


                                               B-1
     Obtained an understanding of the Maxcars automated cost allocation software
      used to allocate the PACAP.

     Determined how indirect costs were allocated.

     Determined if the indirect cost allocation was consistent with the approved Cost
      Allocation Plan.

     Determined if the allocation method fairly and accurately allocated expenses to
      all benefiting agencies.

•   Reconciled the accounting records to the CT-DDS indirect costs reported on Form
    SSA-4513, entitled State Agency Report of Obligations for SSA Disability Programs.

•   Reconciled costs allocated from the State Central Services (through the SWCAP) to
    the Department of Social Services.

•   Verified the SWCAP calculation for the removal of SFY 2004 and 2005 Title IV-D
    program costs from the Office of Attorney General allocation, and the corresponding
    credit to the SFY 2006 and 2007 SWCAP.

•   Verified the PACAP calculation for the removal of SFY 2004 and 2005 Department
    of Administrative Services-Bureau of Collection Services from the DDS allocation.

•   Reviewed 100 percent of the costs allocated and the allocation bases for the State
    Central Services to determine whether the DDS benefits from the services.

•   Selected a sample of 4 high dollar indirect costs charged to the DDS, to ensure that
    the DDS benefited from the services.

•   We did not perform substantive testing to determine the allowability and accuracy of
    the indirect costs allocated by the CT-Department of Social Services for FFYs 2005
    and 2006. We will perform the substantive testing during our audit of the
    Administrative Costs Claimed by the Connecticut Disability Determination Services
    (A-15-07-27176).

We determined that the computerized data used during our review was sufficiently
reliable given our audit objective and intended use of the data and should not lead to
incorrect or unintended conclusions. This audit was conducted in accordance with
generally accepted government auditing standards. Our audit was performed from
February 2007 through June 2007. We performed our audit work at the CT-Department
of Social Services in Hartford, Connecticut.




                                           B-2
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 14, 2007                                                     Refer To: S2D1B4/DI-
                                                                                  16/2007-9417

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Follow-up Audit: Indirect Costs for the Connecticut Disability Determination Services (DDS)
           for the Period July 1, 2003 through June 30, 2005 (A-15-07-16034) – (Your Memo, 8/9/07) –
           REPLY


           We have reviewed the draft report and per your request, provide the following comments on
           each recommendation. Overall, we concur with the draft report.

           Recommendation #1 – Instruct the CT DSS to revise its PACAP to incorporate a description
           of the residual OAG costs and explain how the CT-OAG costs are allocated to its
           components, which includes the DDS.
           Our impression from the first audit was that all CT-OAG costs (associated with Title IV-D
           program) were disallowed from the PACAP. Based on this audit, a finding has been made that
           the 2006 PACAP has some CT-OAG services which the DDS does in fact receive. The audit
           asks for a description of these ‘residual costs’ and the allocation method. We concur that this
           detailed information is needed, so we can verify that the services are received and that the
           allocation of the costs to the DDS is fair and reasonable. We would like to know the specific
           services being purchased, the basis on which billing will be made, and have a stipulation that the
           billing will only be for the services received.

           Recommendation #2 – The CT DSS should return $412,986 of indirect costs associated with
           SFYs 2005 and 2006 for the Cater EMS expenses for which the DDS received no benefit.
           Since the DDS does not use the Cater EMS system, we concur that the $412,986 costs allocated
           for these services in FFY 2005 and 2006 should be totally refunded.




                                                          C-1
We are encouraged to see the agency address indirect costs, which have become a major
operating cost for all DDSs. We appreciate the auditors due diligence in finding even more
monetary findings related to indirect costs in the state of Connecticut. The complexity of
indirect cost allocation plans and the changing costs and allocation methods combine to make
this a very challenging area, as is evidenced by this one state’s multiple monetary findings.

cc: Ruby Burrell, AC, ODD
    Theresa Washington, DCBFM, ALMS




                                              C-2
                        Appendix D

State Agency Comments
D-1
D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Mark Meehan, Acting Audit Manager, (410) 966-7147

Acknowledgments

In addition to those named above:

   Florence Wolford, Auditor-in-Charge

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-07-16034.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
